HHS/OIG-Audit--"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1997, (A-04-98-04220)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1997," (A-04-98-04220)
December 17, 1998
Complete
Text of Report is available in PDF format (2.03 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discloses the results of our audit of Superfund financial activities at the Agency for Toxic Substances
and Disease Registry (ATSDR) for Fiscal Year 1997. The ATSDR receives Superfund monies through an interagency agreement
with the Environmental Protection Agency to carry out health related activities mandated by Superfund legislation. From
October 1, 1996 through September 30, 1997, ATSDR's obligations of Superfund monies totaled about $63.9 million and disbursements
totaled about $58.8 million of funds obligated during and prior to that year. Our audit disclosed minor problems, but showed
that, in general, ATSDR administered Superfund monies in accordance with applicable laws, regulations, and other requirements.